8

2

3

In your letter give us the following information:

An increase or decrease in the index will cause a corresponding increase or decrease in your variable rate on the first day of
your billing cycle that begins in the same month as the determination date. An increase in the index means that you will pay
higher periodic rate finance charges and have a higher total minimum payment due. If The Wall Street Journal does not publish
the US Prime Rate or if it changes the definiton of the US Prime
Rate, we may at our sole discretion, substitute another index.

imposed during the current billing cycle for Cash Advances
posted to your account during previous billing cycles. The FINANCE CHARGE for a billing cycle is computed by applying
the monthly Periodic Rate to the average daily balance of Cash
Advances, which is determined by dividing the sum of the daily balances by the number of days in the billing cycle. Each
daily balance of Cash Advances is determined by adding to
the outstanding unpaid balance of Cash Advances at the beginning of the billing cycle any new Cash Advances posted to
your account, and subtracting any payments received or credits
posted to you, but excluding any unpaid FINANCE CHARGES.

• Your name and account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can, why you believe
there is an error. If you need more information, describe the
item(s) you are not sure about.
If you have authorized us to pay your credit card bill automatically from your savings or share draft account, you can stop the
payment on any amount you think is wrong. To stop the payment
your letter must reach us three (3) business days before the automatic payment is scheduled to occur.
YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER WE RECEIVE
YOUR WRITTEN NOTICE
We must acknowledge your letter within thirty (30) days, unless
we have corrected the error by then. Within ninety (90) days, we
must either correct the error or explain why we believe the bill
was correct.
After we receive your letter, we cannot try to collect any
amount you question, or report you as delinquent. We can
continue to bill you for the amount you question, including finance charges, and we can apply an unpaid amount
against your credit limit. You do not have to pay any questioned amount while we are investigating, but you are still
obligated to pay the parts of your bill that are not in question.
If we find that we made a mistake on your bill, you will not have
to pay any finance charges related to any questioned amount.
If we didn’t make a mistake, you may have to pay finance
charges, and you will have to make up any missed payments
on the questioned amount. In either case, we will send you a
statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent. However, if our explanation does not satisfy you and you write to us within ten (10) days telling us that you
still refuse to pay, we must tell anyone we report you to that you
have a question about your bill. And, we must tell you the name
of anyone we reported you to. We must tell anyone we report you
to that the matter has been settled between us when it finally is.
If we don’t follow these rules, we can’t collect the first $50
of the questioned amount, even if your bill was correct.
SPECIAL RULE FOR CREDIT CARD PURCHASES
If you have a problem with the quality of property or services
that you purchased with a credit card, and you have tried in
good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
property or services. There are two (2) limitations on this right:
(a) You must have made the purchase in your home state
or, if not within your home state, within one hundred (100)
miles of your current mailing address; and
(b) The purchase price must have been more than $50. These limitations do not apply if we own or operate the merchant, or if we
mailed you the advertisement for the property or services.

MECU OF
BALTIMORE, INC.
One South Street • Baltimore, MD 21202

VISA CREDIT CARD AGREEMENT
In this agreement the words “you” and “your” means the cardholder who opened the Account. “Card” means the MECU VISA®
Platinum Credit Card or the MECU VISA® Signature Credit Card
and any duplicates, renewals or substitutions we issue. “Account” means your VISA® Credit Card line of credit account with
us. “Credit Union” means the Credit Union whose name appears
on this agreement or anyone whom the Credit Union transfers
this agreement. “We”, “us” and “ours” means MECU of Baltimore,
Incorporated. This agreement is effective as of January 1, 2015.
1. USING YOUR ACCOUNT. If you are approved for an Account,
the Credit Union will establish a line of credit for you and notify you of your credit limit. You agree that your credit limit is the
maximum amount (purchases, cash advances, finance charges,
plus “other charges”) that you will have outstanding on your
Account at any time. If you are over your credit limit, you must
pay the amount you are over before payments will begin to
restore your credit limit. We may, from time to time, either
upon your request or at our option, increase or decrease your
credit limit, and we will notify you if we do. You may request
an increase in your credit limit only by a method acceptable
to the Credit Union. The Credit Union has the right to reduce
your credit limit, refuse to make an advance and/or terminate
your Account at any time for any reason not prohibited by law.
2. USING YOUR CARD. You may use your Card to make purchases
from merchants and others who accept VISA® Cards. In addition,
you may obtain cash advances from the Credit Union and from
other financial institutions that accept VISA® Cards, and from some
automated teller machines (ATMs). (Not all ATMs accept VISA®
Cards.) To obtain cash advances from an ATM, you must use the Personal Identification Number (PIN) that is issued to you for use with
your Card. You agree that you will not use your Card for any transaction that is illegal under applicable federal, state, or local law.
3. RESPONSIBILITY. You agree to pay all charges (purchases and
cash advances) to your Account that are made by you or anyone
whom you authorize to use your Account. You also agree to pay
all finance charges and other charges added to your Account under the terms of this Agreement or another agreement you made
with the Credit Union. If this is a Joint Account, Section 22 also
applies to your Account.
4. RATE. We will use the following variable rate formula for Variable Standard Rates, Variable Defaults Rates and Variable Promotional Rates. All variable rates are calculated by adding together an index and a margin. This index is determined on the last
business day of each month and is the US Prime Rate as published in The Wall Street Journal on the last publication of each
month. The margin used to determine your APR is listed in the
Disclosure that accompanied your New Card Documentation.

M-119340

5. FINANCE CHARGES. APPLICATION OF PAYMENTS: Your payments will be applied by us in the following manner. (1) If your
payment is large enough, we will apply it to pay your Total New
Balance in full. If your payment is greater than your Total New
Balance we will apply the excess first to pay new cash advances and next to pay new purchases occurring after the Closing
Date shown on your billing statement. If you make no new cash
advances or purchases, the excess will be shown as a credit balance on your next billing statement for which you may, by written request, get a refund; or (2) If your payment is less than the
Total New Balance, we will apply the payment first to any unpaid
FINANCE CHARGE, with the balance, if any, first to the entire
cash advance balance and next to the entire purchase balance.
FINANCE CHARGE ON PURCHASES: The periodic rate applicable to purchases are disclosed on the disclosures that accompanied your New Card Documentation. A FINANCE CHARGE
will be imposed on credit Purchases only if you elect not to pay
the entire New Balance shown on your monthly statement for
the previous billing cycle within twenty five (25) days from the
closing date of that statement. If you elect not to pay the entire New Balance shown on your previous monthly statement
within that twenty five (25) day period a FINANCE CHARGE will
be imposed on the unpaid average daily balance of such credit purchases from the previous statement closing date and on
new credit purchases from the date of posting to your account
during the current billing cycle and will continue to accrue until the closing date of the billing cycle preceding the date on
which the entire New Balance is paid in full or until the date of
payment if more than twenty five (25) days from the closing date.
The FINANCE CHARGE for a billing cycle is computed by applying
the monthly Periodic Rate to the average daily balance of credit
purchases, which is determined by dividing the sum of the daily
balances during the billing cycle by the number of days in the cycle.
Each daily balance of credit purchases is determined by adding to
the outstanding unpaid balance of credit Purchases at the beginning of the billing cycle any new credit Purchases posted to your
account and subtracting any payments received or credits posted to your account but excluding any unpaid FINANCE CHARGE.
FINANCE CHARGE ON CASH ADVANCES: The periodic rate applicable to cash advances are disclosed on the disclosures that accompanied your New Card Documentation. A FINANCE CHARGE
will be imposed on Cash Advances from the date made or from
the first day of the billing cycle in which the Cash Advance is posted to your account, whichever is later, and will continue to accrue
on the unpaid average daily balance of such Cash Advances until
the date of the billing payment if paid during the same billing cycle, or until the closing date of the billing cycle preceding the date
on which the entire New Balance is paid in full or until the date of
payment if more than twenty five (25) days from the closing date.
If the New Balance shown on your monthly statement for the prior billing cycle is paid in full within twenty five (25) days from the
closing date of that statement, no FINANCE CHARGES will be

6. OTHER CHARGES. The following other charges (fees) will be
added to your Account, as applicable:
a. Late Payment Fee: Payments which are received fifteen
(15) days past due will be subject to a Late Payment Fee up to
$24.00, dependent upon outstanding balance.
b. Return Check Fee: If a check or share draft used to make a payment on your account is returned unpaid, you will be charged a
fee of up to $15.00 for each item returned dependent upon your
outstanding balance.
c. Effect of Default: If you are in default under this Cardholder
Agreement, at our option we can require immediate payments of
all amounts you owe under your account. If we refer your account
to any attorney for collection, you will have to pay an attorney or
collection fee of 15% of the amount owing, plus all court costs.
d. Foreign Transaction Fee: Refer to Section 19.
e. If applicable, there will be a $5 charge assessed to your credit card statement for each expedited telephone payment initiated by the cardholder through 24/7 Cardholder Services.
f. Lost Card Replacement Fee: If your card is lost and you order a
replacement, you will be charged a lost card fee of $10 per card.
g. Express Delivery Fee: If you request Express Delivery of a
replacement card, you will be charged an Express Delivery fee of
$10 per delivery.
7. PAYMENTS. Each month you must pay at least the minimum
payment shown on your statement by the date specified on
the statement or no later than twenty-five (25) days from the
statement closing date, whichever is later. If your statement says
the payment is “Now Due,” your payment is due no later than
twenty-five (25) days from the statement closing date. You may
pay more frequently, pay more than the minimum payment
or pay the Total New Balance in full. If you make extra or larger
payments, you are still required to make at least the minimum
payment each month your Account has a balance (other than a
credit balance). The minimum payment for the MECU Platinum
and Signature card is 2% of your Total New Balance for purchases and cash advances, or $10.00, whichever is greater, plus
the amount of any prior minimum payments that you have not
made, and any amount you are over your credit limit. The Credit
Union also has the right to demand immediate payment of any
amount by which you are over your credit limit. The current
minimum payment will be rounded off to the next whole dollar.
The credit union may, at our discretion, delay in restoring your
available credit limit up to the amount of the payment(s) in order
to assure that the check or other payment instrument is honored.

4

5

6

7

8. PAYMENT ALLOCATION. Your payments will be applied
to the balance owed in accordance with applicable law.

The Card or Cards you receive remain the property of the Credit
Union and you must recover and surrender to the Credit Union
all Cards upon request or upon termination of this Agreement
whether by you or the Credit Union. The Credit Union has the
right to require you to pay your full Account balance at any
time after your Account is terminated, whether it is terminated
by you or the Credit Union. If this is a Joint Account, Section 22
of this Agreement also applies to termination of the Account.

be shown on your Account Statement. The standard terms of
the Agreement apply to any special promotion, except where
changed by the special promotion. Except to the terms modified by the special promotion, standard terms will continue to
apply to any and all transactions that are not subject to a special promotion. If you elect a special promotion, you agree to the
terms of the promotion and understand that any unpaid balance
related to the special promotion will be subject to the standard
terms when the promotional period ends. We are not required to
give you advance notice before resuming or starting to bill you
according to the standard terms described in the Agreement.

been unable to obtain satisfaction from the merchant or service
provider, and (a) your purchase was made in response to an advertisement the Credit Union sent or participated in sending
to you; or (b) your purchase cost more than $50 and was made
in your state or within one hundred (100) miles of your home.

9. SECURITY INTEREST. If you give the Credit Union a specific
pledge of shares by signing a separate pledge of shares, your
pledged shares will secure your Account. You may not withdraw
amounts that have been specifically pledged to secure your Account until the credit union agrees to release all or part of the
pledged amount. In addition, your Account is secured by all other
shares you have in any individual or joint account with the Credit
Union, except for shares in an Individual Retirement Account or
in any other account that would lose special tax treatment under
state or federal law if given as security. These other shares may be
withdrawn unless you are in default under this agreement. You
authorize the Credit Union to apply the balance in your individual
or joint share accounts to pay any amounts due on your Account if
you should default. Collateral securing other loans you have with
the Credit Union may also secure this loan, except that a dwelling will never be considered as security for this Account, notwithstanding anything to the contrary in any other agreement.
10. DEFAULT. You will be in default if you fail to make any minimum payment or other required payment by the date that
it is due. You will be in default if you break any promise you
make under this Agreement. You will be in default if you die,
file for bankruptcy or become insolvent, that is, unable to pay
your obligations when they become due. You will be in default if you make any false or misleading statements in any
credit application or credit update. You will also be in default if something happens that the Credit Union believes
may substantially reduce your ability to repay what you owe.
When you are in default, the Credit Union has the right to
demand immediate payment of your full Account balance
without giving you notice. If immediate payment is demanded, you agree to continue paying finance charges, at the
periodic rate charged before default, until what you owe
has been paid, and any shares that were given as security for your Account may be applied towards what you owe.
11. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD
NOTIFICATION. You agree to notify us immediately, orally or in
writing at One South Street, Baltimore, MD 21202 or telephone
(800) 449-7728 seven (7) days a week, twenty-four (24) hours a
day, of the loss, theft, or unauthorized use of your Credit Card.
You may be liable for the unauthorized use of your Credit Card.
You will not be liable for unauthorized use that occurs after
you notify us of the loss, theft, or possible unauthorized use.
You will have no liability for unauthorized purchases made with
your credit card, unless you are grossly negligent in the handling of your card. In any case, your liability will not exceed $50.
12. CHANGING OR TERMINATING YOUR ACCOUNT. The Credit Union may change the terms of this Agreement from time
to time. Notice of any change will be given in accordance with
applicable law. If permitted by law and specified in the notice
to you, the change will apply to your existing Account balance
as well as to future transactions. Either you or the Credit Union
may terminate this Agreement at any time, but termination by
you or the Credit Union will not affect your obligation to pay the
Account balance plus any finance and other charges you owe under this Agreement. You are also responsible for all transactions
made to your Account after termination, unless the transactions
were unauthorized.

13. CREDIT REPORTING. You authorize the credit union to investigate your credit standing when opening or reviewing your
account. You authorize the credit union to disclose information
regarding your account to credit bureaus and creditors who
inquire about your credit standing. If your account is eligible
for emergency cash and/or emergency card replacement services, and you request such services, you agree that we may
provide personal information about you and your account
that is necessary to provide you with the requested service(s).
We may report your performance under this Agreement to
credit reporting agencies, including your failure to make minimum payments on time. If you request additional cards on
your account for others, you understand that we may report
account information in your name, as well as in the names of
those other people. We may also obtain follow-up credit reports on you (for example, when we review your account for a
credit line increase). If you wish to know the names of the agencies we have contacted, write us at the address listed on the
billing statement. We will try to notify you by telephone or by
mail of any legal process served on us in order to give you an
opportunity to object to it, unless the law prohibits the notice.
If you think we reported erroneous information to a credit reporting agency, write us at the address listed on the billing
statement. We will promptly investigate the matter and if our
investigation shows you are right, we will contact each credit
reporting agency to whom we reported and will request they
correct the report. If we disagree with you after our investigation,
we will tell you in writing or by telephone and instruct you how
to submit a statement of your position to those agencies. Your
statement will become a part of your credit record with them.
14. RETURNS AND ADJUSTMENTS. Merchants and others who
honor your Card may give credit for returns or adjustments, and
they will do so by sending the Credit Union a credit slip or other
electronic means which will be posted to your Account. If your
credits and payments exceed what you owe the Credit Union, the
amount will be applied against future purchases and cash advances. If the credit balance amount is $1 or more, it will be refunded
upon your written request or automatically after six (6) months.
15. ADDITIONAL BENEFITS/CARD ENHANCEMENTS. The Credit
Union may from time to time offer additional services to your
Account, such as travel accident insurance, at no additional cost
to you. You understand that the Credit Union is not obligated to
offer such services and may withdraw or change them at any time.
16. SPECIAL PROMOTIONS. From time to time, we may offer
special promotions under which purchases of goods or services,
balance transfers or cash access transactions may be billed to
your account with special promotional terms.
The Finance Charges, minimum payment, application of payments and other terms for special promotions may differ from
the standard terms described in this Agreement and as may

17. CONVENIENCE CHECKS. Convenience checks may be used
to purchase goods and services, to transfer balances from
others, or to obtain funds up to the amount of your available
cash advance limit unless that amount will cause the total
balance to exceed your credit line. We will treat convenience
checks as a cash advance and charge them against your cash
advance limit. Each convenience check must be in the form we
have issued and must be used according to any instructions we
give you. Convenience checks may be used only by the person
whose name is printed on them. Convenience checks may not
be used to pay any amount owed to us under this or any other
Card Agreement that you have with us. We will not certify any
convenience checks, nor will we return paid convenience checks.
18. TELEPHONE MONITORING AND REPORTING. From time to
time we may monitor and record your telephone calls regarding your account with us to assure the quality of our service.
19. FOREIGN TRANSACTIONS. Purchases and cash advances made
in foreign currencies will be debited from your account in U.S. dollars. The exchange rate used to convert foreign currency transactions to U.S. dollars is either a government-mandated exchange
rate or a wholesale exchange rate and is selected by MasterCard.
The rate MasterCard uses for a particular transaction is the rate
MasterCard selects for the applicable currency on the day the
transaction is processed. This rate may differ from the rate applicable on the date the transaction occurred or was posted to your
account. A fee (finance charge) will be charged on all transactions
completed in a foreign currency. All fees are calculated based on
the transaction amount after it is converted to U.S. dollars. These
fees are charged except where excluded. The Foreign Transaction
Fee(finance charge) is set forth on the Disclosure that accompanied your New Card Documentation.
A 1% International Fee will be assessed on all transactions
where the merchant country differs from the country of the
card issuer. The converted transaction will be shown separately from the International Transaction Fee on you billing statement. This fee will be assessed on all international purchases,
credit vouchers, and cash disbursements. The exchange rate for
transactions in foreign currency will be a rate selected by VISA®
from the range of rates available in wholesale currency markets
for the applicable central processing date, which rate may vary
from the rate VISA® itself receives, or the government mandated rate in effect for the applicable central processing date plus
the 1% International Transaction Fee. A fee of 0.8% will be assessed on international transactions conducted in U.S. dollars.
20. MERCHANT DISPUTES. The Credit Union is not responsible for
the refusal of any merchant or financial institution to honor your
Card. The Credit Union is subject to claims and defenses (other
than tort claims) arising out of goods or services you purchase
with the Card if you have made a good faith attempt but have

21. REFUSAL OF THE CARD. We are not responsible if a transaction
on your account is not approved, either by us or by a third party,
even if you have sufficient credit available. We may limit the number of transactions that may be approved in one day. If we detect
unusual or suspicious activity on your account, we may temporarily suspend your credit privileges until we can verify the activity.
22. JOINT ACCOUNTS. If this is a joint account, each of you
will be individually and jointly responsible for paying all
amounts owed under this Agreement. This means that the
Credit Union can require any one of you individually to repay
the entire amount owed under this Agreement. Each of you
authorizes the other(s) to make purchases or cash advances
individually. Any one of you may, in writing, terminate the
Account and the termination will be effective as to all of you.
23. EFFECT OF AGREEMENT. This Agreement is the contract which
applies to all transactions on your Account even though
the sales, cash advances, credit or other slips you sign or
receive may contain different terms.
24. NO WAIVER. The Credit Union can delay enforcing any of
its rights any number of times without losing them.
25. STATEMENTS AND NOTICES. Statements and notices will be
mailed to you at the most recent address you have given the Credit
Union. Notice sent to any one of you will be considered notice to all.
26. FINAL EXPRESSION. This Agreement and the New Account
Disclosures are the final expression of the terms and conditions
of this VISA® line of credit between you and the Credit Union.
This written Agreement may not be contradicted by evidence of
any alleged oral agreement.
27. GOVERNING LAW. This Cardholder Agreement and the granting of credit hereunder is made pursuant to the Maryland
Credit Union Act and the Commercial Law Article, Title 12,
Subtitle 9 and any applicable Federal Laws.
28. COPY RECEIVED. Please read the Agreement carefully and keep
a copy for your records. By using or accepting your credit card,
You acknowledge that you have received a copy of this
Agreement and agree to all of the terms of this Agreement.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights
and our responsibilities under the Fair Credit Billing Act.
NOTIFY US IN CASE OF ERRORS OR QUESTIONS ABOUT YOUR BILL
If you think your bill is wrong, or if you need more information
about a transaction on your bill, write us on a separate sheet at
the address listed on your bill. Write to us as soon as possible.
We must hear from you no later than sixty (60) days after we
sent you the first bill on which the error or problem appeared.
You can telephone us, but doing so will not preserve your rights.

